Februarv14, 2003

STEPHEN M. KEARNEY
VICE PRESIDENT, PRICING AND CLASSIFICATION

SUBJECT:         Audit Report - Review of Nonprofit Authorizations
                 (Report Number AC-AR-03-003)

This report presents the results of our self-initiated audit of authorizations to mail at
nonprofit rates (Project Number 02YG011AC001).

                                                Background
Authorization to mail at Nonprofit Standard Mail rates is a privilege reserved by law to
authorized organizations. The Domestic Mail Manual, paragraph E670.7.3, states that if
an organization submits proof that it has been granted tax-exempt status under Title 26,
United States Code, Sections 501(c)(3), 501(c)(5), 501(c)(8) or 501(c)(19), it is qualified
for nonprofit mailing rates. An exemption from the payment of federal income tax is not
required to qualify for Nonprofit Standard Mail rates, but is considered as evidence of
qualification for nonprofit rates. For organizations that qualify and obtain authorization,
a reduced Standard Mail (A)^ bulk rate is available. Authorization to mail at nonprofit
rates can be revoked for cause when it is determined an organization is no longer
qualified. A revenue deficiency may be assessed in the amount of unpaid postage
against any organization that mailed ineligible matter at the Nonprofit Standard Mail
rates.

                             Objective, Scope, and Methodology
Our objective was to determine whether the Postal Service had reviewed the eligibility
to mail at nonprofit rates for organizations whose tax-exempt status had been revoked
by the Internal Revenue Service.

We reviewed Internal Revenue Service Bulletins for 2000, 2001, and 2002 through
September 30, 2002. We compared those organizations whose tax-exempt status had
been revoked to organizations listed in the Postal Service's nonprofit authorization
database. We contacted the Nonprofit Service Center to determine whether reviews


^ standard Mail (A) is a class of mail matter that weighs less than 16 ounces and is not required to be mailed as
First-Class Mall.
Review of Nonprofit Authorizations                                            AC-AR-03-003



had been conducted on the continued eligibility for nonprofit authorizations based on the
loss of tax-exempt status. We searched the Permit System for those organizations
listed as active in the authorization database. For an organization authorized to mail at
nonprofit rates at a Postal Service facility that did not have access to the Permit System,
we contacted the facility to determine if the organization was mailing at nonprofit rates.
For those organizations with permits to mail at nonprofit rates, we determined the
amount of nonprofit revenue generated since the organization's tax-exempt status was
revoked and what the regular Standard Mail (A) rate would have been.

This audit was conducted from September 2002 through February 2003, in accordance
with generally accepted government auditing standards and included such tests of
internal controls, as were considered necessary under the circumstances. We
discussed our conclusions and observations with appropriate management officials and
included their comments, where appropriate.

                                     Prior A u d i t Coverage

On September 30, 2002, the Office of Inspector General (OIG) issued a management
advisory report. Review of Nonprofit Standard Mail (Report Number AC-MA-02-002).
This review disclosed that the authorization process and database management for
nonprofit mailers needed improvement. We made six recommendations including the
Postal Service conduct periodic reviews of nonprofit authorizations at the Nonprofit
Service Center. Management disagreed with this recommendation, but indicated they
were considering alternative methods of reviewing the continued eligibility of authorized
nonprofit organizations.

                                            Results

The Postal Service did not review the continued eligibility of nonprofit mailers whose
tax-exempt status had been revoked by the Internal Revenue Service. An organization
whose tax-exempt status had been revoked by the Internal Revenue Service was still
mailing at nonprofit rates, even though it appeared the mailer may no longer be eligible
to mail at nonprofit rates. This occurred because the Postal Service did not have
procedures for reviewing revocations of the tax-exempt status of nonprofit mailers. As a
result, the Postal Service did not collect approximately $304,000 in revenues that it may
have been entitled.

Controls to Review the Continued Eligibility of Nonprofit Mailers Need
Improvement                                                      '

The Postal Service had not conducted reviews to determine whether organizations
whose tax-exempt status had been revoked by the Internal Revenue Service remained
eligible for nonprofit rates. The Postal Service uses the tax-exempt status issued by the
Internal Revenue Service as a criterion for most organizations to obtain nonprofit
mailing status. Postal Service officials stated they review nonprofit authorizations when
Review of Nonprofit Authorizations                                              AC-AR-03-003



they receive complaints from other organizations or members of the general public or
when an applicant that may not qualify for the privilege alleges that another similar
organization is already authorized nonprofit privileges. However, the Postal Service
does not review revocations of tax-exempt status to determine if an organization still
qualifies for nonprofit mailing rates.

From January 2000 to September 2002, the Internal Revenue Service revoked the
tax-exempt status of 70 organizations. We identified three organizations that had
active authorizations to mail at nonprofit rates although their tax-exempt status had
been revoked. These organizations were: ^ ^ ^ ^ ^ ^ ^ ^ B B J ^ B B ^ M i ^ ^ ^ W
^ ^ ^ ^ ^ ^ ^ ^ ^ ^ m ^ ^ ^ ^ m ^ ^ m m m ^ ^ l ^ l see                           for the
addresses and mailing locations for these organizations.




The Domestic Mail Manual states that an organization may be authorized to mail at
nonprofit rates if it is not organized for profit and none of its net income benefits any
individual. Therefore, it a p p e a r s ^ H H ^ ^ ^ ^ ^ ^ H d o e s not meet the requirements
for nonprofit mailing rates. From April 15, 1999, through October 17, 2 0 0 2 , ^ ^ H j
^ ^ ^ ^ ^ ^ ^ 1 had 339 mailings, totaling $480,079, all at nonprofit rates. However,
using Standard Mail (A) regular rates, the Postal Service should have received
$784,743 for these mailings, a difference of approximately $304,000.

We previously recommended the Nonprofit Service Center conduct periodic reviews of
nonprofit authorizations. We realize the risk of revenue loss must be weighed against
the cost of establishing controls to prevent and detect such losses. However,
conducting these periodic reviews on organizations that have lost their tax-exempt
status from the Internal Revenue Service will target Postal Service efforts based on
potential risk.

Recommendation

We recommend the vice president, Pricing and Classification:

1.   Establish policies and procedures for reviewing the continued eligibility for nonprofit
     authorizations based on the loss of tax-exempt status.
Review of Nonprofit Authorizations                                              AC-AR-03-003



Management's Comments

Management agreed with the recommendation. Personnel at the Nonprofit Service
Center are now reviewing Internal Revenue Service Bulletins for organizations with
nonprofit authorizations that have lost their tax-exempt status. Management's
comments, in their entirety, are included Appendix B of this report.

Recommendation

We recommend the vice president, Pricing and Classification:

2.   Review the nonprofit mailing authorizations fot
                                                                             to
     determine whether these organizations remain eligible to mail at nonprofit rates.

Management's Comments

Management agreed with the recommendation, A review of these organizations
eligibility to mail at Nonprofit Standard Mail rates will be completed and actions taken to
revoke said authorizations if found not to be in compliance with Postal Service
standards.

Recommendation

We recommend the vice president, Pricing and Classification:

3.   Determine whether to initiate action for assessment and collection of shortages in
     postage paid b y j j j ^ ^ ^ ^ B U J i ^ H o r to refer this issue to the Inspection
     Service for action as appropriate.

Management's Comments

Management agreed with the recommendation. Personnel at the Nonprofit Service
Center are reviewing this organization's nonprofit authorization. If appropriate, action
will be initiated to revoke this authorization and if any indications of fraud are detected,
the case will be referred to the Postal Inspection Service.

Evaluation of Management's Comments

Management's comments are responsive to recommendations 1, 2, and 3.
Management's actions taken or planned should correct the issues identified in the
report.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
Review of Nonprofit Authorizations                                         AC-AR-03-003



corrective action(s) are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Larry Chisley
at (813) 261-5200 or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Anita J. Bizzotto
    Sherry L. Freda
    Edward S. Walker
    Angelo Wider
    Danny R. Neal
    Susan M. Duchek
Review of Nonprofit Authorizations                                 AC-AR-03-003



                      APPENDIX. A
   ORGANIZATIONS AUTHORIZED TO MAIL AT NONPROFIT RATES
      BUT NO LONGER HAVE INTERNAL REVENUE SERVICE
                   TAX-EXEMPT STATUS




                                     Postal     Nonprofit
                                     Service    Authorization   Permit
                                     Facility   Number          Number
Review of Nonprofit Authorizations                                                                                AC-AR-03-003



                             APPENDIX. MANAGEMENTS COMMENTS

               SlEPHf N M .          KEABHev

               V e t PntSOtHT

               P n c n a HMD C L A S 3 * I C > T > ( M



               UNITED STATES
               POSTAL SERVICE



                January 17.2003



               B.WAYNE GOLESKI
               ASSISTANT INSPECTOR GENERAL FOR CORE OPERATIONS

                SUBJECT: Draft Audit Report - Review of Nonprofit Auttiorizations
                         (Report Number AC-AR-03-DraFI)


                Attached is management's response to tfie findings and recommendations of the Office of the
                Inspector General in this matter.

                It you have any questions or require further information, please contact Sherry Freda, manager,
                Mailing Standards at (703) 292-3651.




                Stephen M. Kearney

                Attachment




                l 7 3 b N O T H L v r f l S'BTFI

                AHiNCiOK VA ? ? ? 0 9            6 X '

                ?03 392-3831

                s k e a m c y O u i p s cani

                WWiW USDS COfll
Review of Nonprofit Authorizations                                                                                       AC-AR-03-003




                                                    Response to OIG Report
                                                Review oi f^onprofil Authorliatlons
                                                (Report Number AC-AR-03-Draft)




                RECOMMENDATION #1

                        •   Establish policies and procedures lor reviewing the continued eligibility for nonprolit
                            authorizations based on ttie loss of tax-exempt status.

                RESPONSE

                We agree with this recommendation. Ttie recommendeb review procedure using information lo
                be obtained from the Internal Revenue Service and reviewed regularly has been instituted by Itie
                Memphis Nonprofit Service Center which has already begun reviewing IRS Bulletins.

                RECOMMENDATION #2

                            Review the nonprofit authorizations f o r ^ ^ ^ ^ ^ ^ ^ ^ J ^ ^ ^ ^ J H ^ ^ ^ ^ ^ J ^ ^ J
                            H ^ ^ l ^ ^ ^ ^ ^ ^ ^ m ^ ^ H ^ ^ I to determine whether these organizations
                            remain eligible to mail at nonprofit rates.

                RESPONSE

                We agree and will initiate review of the authorizations named immediately taking action to revoke
                said authorizations if found to be not in compliance with Postal Standards of evidence to be
                furnished necessary to demonstrate eligibility to mail at Nonprofit Standard mail rates.

                RECOMMENDATION ff3

                            Determine whetlieM^nitiat^cllor^or assessment and collection of shortages in
                            postage paid ^ V ^ ^ ^ ^ ^ ^ ^ ^ K ^ M o ^ to refer this issue to the Inspection Service
                            for action as a p p r o p r i a l e ^ ^ ^ ^ ^ ^ ^

                RESPONSE

                We concur with the recommendation. The Memphis NSC is currently reviewing the authorization
                previously granted to the organization and, if appropriate, the action will be initialed to revoke the
                authorization. In addition, any indication D1 suspected fraud will be appropriately referred to the
                Postal Inspection Service once detected.
